SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, D.C. 20005
+1 202 736 8000
+1 202 736 8711 FAX
+1 202 736 8027
PKEISLER@SIDLEY.COM
AMERICA • ASIA PACIFIC • EUROPE

February 19, 2020
By First Class Mail and Electronic Filing
The Hon. Scott S. Harris
Clerk of the Court
United States Supreme Court
1 First Street, N.E.
Washington, DC 20543
Re:

Ford Motor Company v. United States, No. 19-1026

Dear Mr. Harris:
I represent Petitioner Ford Motor Company (“Ford”) in the above-referenced matter. In
accordance with Rule 37.3(a), Ford hereby grants blanket consent to the filing of amicus curiae
briefs in support of either or neither party.
Sincerely,
/s/ Peter D. Keisler
Peter D. Keisler
Counsel for Ford Motor Company
CC:

Noel L. Francisco
Matthew J. Glover
Michael Shih
Beverly A. Farrell
Jason M. Kenner
Justin R. Miller
Amy Rubin
Yelena Slepak

Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

